E-Mail Address: 775 H Street, N.E.

Est eal briefs@wilsonepes.com Washington, D.C. 20002
WSO PAIN Web Site: Tel (202) 789-0096
esc www.wilsonepes.com Fax (202) 842-4896

Nos. 19-431 & 19-454

LITTLE SISTERS OF THE
POOR SAINTS PETER AND PAUL HOME,
Petitioner,
v.

COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Petitioners,
Vv.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 8, 2020, three (3) copies of the BRIEF OF PHYLLIS C. BORZI
AND DANIEL J. MAGUIRE AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above-
captioned case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

MARK LEONARD RIENZI MICHAEL J. FISCHER

BECKET FUND FOR RELIGIOUS LIBERTY Chief Deputy Attorney General

1200 New Hampshire Avenue, NW, Suite 700 PENNSYLVANIA OFFICE OF ATTORNEY GENERAL
Washington, DC 20036 1600 Arch Street, Suite 300

(202) 349-7208 Philadelphia, PA 19103

Counsel for Petitioner The Little Sisters of the (215) 560-2171
Poor Saints Peter and Paul Home Counsel for Respondents Commonwealth of

NOEL J. FRANCISCO Pennsylvania, et al.
Solicitor General

UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW

Washington, DC 20530

(202) 514-2217

Counsel for Petitioner Donald J. Trump, et al.

The following email addresses have also been served electronically:
mrienzi@becketlaw.org

SupremeCtBriefs@USDOJ.gov

mfischer@attorneygeneral.gov

ehopkins@kantorlaw.net
ROBYN DorSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 8th day of April 2020.

 
 
    

COLIN CASEY HoGAN
Notary PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
